No. 20-7863

IN THE SUPREME COURT
OF THE UNITED STATES
MARTING. LEWIS,
Petitioner,

v.
DEWAYNE HENDRIX,
Respondent.
On Petition For Writ Of Certiorari To
The United States Court Of Appeals
For The Ninth Circuit
CERTIFICATE OF SERVICE AND MAILING
I, Stephen R. Sady, counsel of record and a member of the Bar of this Court, certify
that pursuant to Rule 29.3, service has been made of the within Reply to Brief for the United
States in Opposition on the counsel for the respondent by depositing in the United States
Post Office, in Portland, Oregon on August 6, 2021, first class postage prepaid, an exact
and full copy thereof addressed to:
Julia Jarrett, Assistant U.S. Attorney
1000 S.W. Third Avenue, Suite 600
Portland, OR 97204

1

Amy Potter, Assistant U.S. Attorney
405 E. Eighth Avenue, Suite 2400
Eugene, OR 97401
Kelly A. Zusman, Assistant U.S. Attorney
1000 S.W. Third Avenue, Suite 600
Portland, OR 97204
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
Further, the original and ten copies were mailed to the Honorable Scott S. Harris,
Clerk of the United States Supreme Court, by depositing them in a United States Post
Office Box, addressed to 1 First Street, N.E., Washington, D.C., 20543, for filing on this
6th day of August, 2021, with first-class postage prepaid.
Additionally, I electronically filed the foregoing Motion for Leave to Proceed In
Forma Pauperis and Petition for Writ of Certiorari by the using the Supreme Court's

Q

Electronic filing system on August 6, 2021 .
Dated this 6th day of August, 2021

= - - --J...£-\---1~::::,,,,_- - - J . - -- - - - -

St ephen . Sady
Attorney for Petitioner

Subscribed and sworn to before me this 6th day of August, 2021.

OFFICIAL STAMP
CATALINA BARBOZA
NOTARY PUBLIC• OREGON
COMMISSION NO. 892172
flf OOMMnJ810N E>CPIRES SEPTEMBER 23, 2023
-

2

